<html>
<title> - PROTECTING THE GOOD FRIDAY AGREEMENT FROM BREXIT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


            PROTECTING THE GOOD FRIDAY AGREEMENT FROM BREXIT

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 22, 2019

                               __________

                           Serial No. 116-71

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-072PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                                 
                                 ------                                

      Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman

ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey		     JOE WILSON, South Carolina
THEODORE DEUTCH, Florida	     ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island	     JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas		     FRANCIS ROONEY, Florida
DINA TITUS, Nevada		     BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania	     GREG PENCE, Indiana
DAVID TRONE, Maryland		     RON WRIGHT, Texas
JIM COSTA, California		     MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas		     TIM BURCHETT, Tennessee


                    Gabrielle Gould, Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Sloat, Dr. Amanda, Robert Bosch Senior Fellow, Center on the 
  United States and Europe, The Brookings Institution............     8
Farrell, Dr. Henry, Associate Professor of Political Science and 
  International Affairs, Elliott School of International Affairs, 
  The George Washington University...............................    18

                                APPENDIX

Hearing Notice...................................................    37
Hearing Minutes..................................................    38
Hearing Attendance...............................................    39

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Additional materials submitted for the record from Reprrsentative 
  Cicilline......................................................    40

 
            PROTECTING THE GOOD FRIDAY AGREEMENT FROM BREXIT

                       Tuesday, October 22, 2019

                        House of Representatives

                    Subcommittee on Europe, Eurasia,

                      Energy, and the Environment

                      Committee on Foreign Affairs

                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2172 Rayburn House Office Building, Hon. William Keating 
(chairman of the subcommittee) presiding.
    Mr. Keating. I call the meeting to order.
    I thank our witnesses for being here.
    A brief announcement that I have been asked to convey for 
anyone that might be in the room, that might not know 
otherwise, the Foreign Affairs Asia Subcommittee hearing, Human 
Rights in South Asia: Views from the State Department and the 
Region, that hearing is occurring in 2318 Rayburn.
    The subcommittee is meeting today to hear testimony on how 
we can protect the Good Friday Agreement and uphold the peace 
and stability in Northern Ireland.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitation in the rules.
    I will now make a brief opening statement and then turn it 
over to the ranking member for his opening statement.
    The focus of our hearing today is how we can help maintain 
peace and stability in Northern Ireland in the face of the 
United Kingdom's potentially imminent exit from the European 
Union. Brexit has been a long and challenging process full of 
difficult negotiations, and fair to say a lot of twists and 
turns. Even as we sit here, a new proposal to address the issue 
of Northern Ireland is under consideration by U.K. Parliament.
    For many of us, Northern Ireland is a deeply personal 
issue. My generation grew up bearing witness to the Troubles 
during which 3,500 people approximately lost their lives. We 
mourn their loss. We celebrated alongside our compatriots when 
the Good Friday Agreement was reached in 1998. Now, 21 years 
later, the Good Friday Agreement remains invaluable to peace 
and stability on the island of Ireland.
    Special Envoy to Northern Ireland, George Mitchell, played 
a crucial role as chairman of the peace talks, and the United 
States is still viewed as a neutral broker in maintaining good 
relations between the United Kingdom and Ireland.
    I would say every time I speak to some of my peers in 
Ireland they will remind me time and time again that there 
would have been no peace if it had not been for the U.S. 
intervention.
    I would like to recognize Chairman Neal of Massachusetts, 
and Representative King of New York, who served as co-chairs of 
the Friends of Ireland Caucus and have long committed to 
ensuring the success of the Good Friday Agreement.
    It is not to say the situation is perfect today, as 
Northern Ireland continues to deal with the past and the 
legacies of the Troubles. Most Protestants and Catholics in 
Northern Ireland, they largely coexist, still live separate 
from one another. Northern Ireland still struggles with 
governance and economic inequality.
    Pockets of parliamentary activity still exist. Just a few 
months ago, journalist Lyra McKee was shot by a new IRA 
dissident Republican group, yet due in large part to the Good 
Friday Agreement, these challenges are neither pervasive or 
insurmountable.
    Today Brexit is poised to threaten those 21 years of 
relative calm. Good Friday Agreement achieved the 
demilitarization of Northern Ireland with the removal of the 
security installations at the border, and the conflicts and 
violence that often accompanied them are gone as well.
    After Brexit, Northern Ireland will be the only part of the 
U.K. that shares a land border with the EU, and many fear those 
border controls could once again result in a new reality. The 
return to a hard border would not only symbolize a divided 
Ireland, it would create enormous problems for the people of 
Northern Ireland and Ireland who, for the last two decades, 
have been able to work, trade, and move freely across the 
border, a reality that has been fundamental to a lasting piece.
    It is no surprise that Northern Ireland remains a main 
sticking point in the negotiations between U.K. and the EU This 
is not an issue that should be taken lightly, nor should Brexit 
be permitted to threaten the decades of gains made under the 
Good Friday Agreement.
    I stand with Speaker Pelosi and other Members of Congress, 
including Chairman Neal, in pledging not to engage in bilateral 
U.S./U.K. trade deals, should Brexit undermine the Good Friday 
Agreement, including the seamless border between the Irish 
Republic and Northern Ireland.
    I am pleased to join Representatives Suozzi and King in co-
sponsoring House Resolution 585, reaffirming the support of the 
Good Friday Agreement and other agreements geared at a lasting 
peace in Northern Ireland.
    As we know, the possibility of a Brexit deal is changing 
from moment to moment. That is one of the things that concerned 
us with this. We had to check in before the hearing started, 
just to be sure. And we are pleased that the U.K. and EU have 
attempted to make progress toward a deal. And I commend the 
commitment to honoring the Good Friday Agreement, particularly 
one that does not impose a hard border between Northern Ireland 
and the Republic of Ireland.
    We know that there are many details that still have to be 
addressed, and we know that everyone is not entirely happy with 
the potential deal. But we appreciate the commitment by the EU 
and U.K. government to peace for Northern Ireland and for the 
Good Friday Agreement.
    Regardless of what happens with this deal, or any other 
developments that may transpire before October 31st, Brexit 
will not be an easy transition. It is still a long road ahead 
for the EU, the United Kingdom, and the Island of Ireland as 
they deal with the reality of a post-Brexit world. And I hope 
there is shared commitment to the Good Friday Agreement and 
peace in Northern Ireland will remain as the highest priority.
    I would like to thank the witnesses for joining us today. I 
hope your testimony today will help us better understand 
Brexit's consequences for Northern Island and the Good Friday 
Agreement, and especially the deal that is being currently 
discussed.
    As Members of Congress, we must continue to work toward 
lasting peace, stability, and prosperity in Northern Ireland.
    Thank you, and I now turn it over to the ranking member for 
his opening remarks.
    Mr. Kinzinger. Thank you, Mr. Chairman, and thank you all 
for being here today. I very much appreciate it.
    On June 23, 2016, the United Kingdom voted to leave the EU 
by a narrow margin of 52 to 48. This historic moment resulted 
in endless hours of debates, two prime ministers' resignations, 
snap elections, and a suspended Parliament that makes us look 
like we have got it together here, so thank you.
    Now, after numerous failed attempts to pass withdrawal 
agreements through the House of Commons, we may finally be 
nearing the Brexit that millions of U.K. citizens voted for 
over 3 years ago. However, there is a lot of concerns.
    Many still worry about the possible unintended consequences 
of Brexit on the Good Friday Agreement, which ended the war in 
Ireland and brought peace to the island.
    During the 30 years known as the Troubles, roughly 3,600 
men, women, and children were killed in Northern Ireland as 
feuding political factions terrorized one another. That is why 
I believe that any Brexit deal must protect the Good Friday 
Agreement and ensure that no hard border be constituted.
    Additionally, the agreement must protect Northern Ireland's 
economy. We cannot let unemployment drive a resurgence of 
terror on the Irish island. No one in the U.K., no one in this 
room, wants to see the situation devolve to those darker days. 
Luckily, I do not think the Brexit deal struck by Prime 
Minister Johnson will result in that.
    Last week negotiations for both the U.K. and the EU came to 
an agreement on a Brexit deal that would honor the Good Friday 
Agreement.
    President Juncker of the European Commission has come out 
in support of this agreement, and it benefits both EU and the 
U.K., while lasting peace and stability on the--while ensuring 
peace and stability on the island. Likewise, the EU's chief 
negotiator stated that this deal will avoid a hard border 
between Northern Ireland and the Republic of Ireland, a key 
provision of the Good Friday Agreement, and would benefit 
businesses across the north.
    I am thankful that the latest negotiated deal between the 
U.K. and the EU emphasized the importance of this agreement. 
Whatever deal that is eventually voted on and enacted must 
avoid a return to violence of the late 20th century. Prime 
Minister Boris Johnson, who was unable to pass this deal 
through the House of Commons over the weekend, has now asked 
the EU for a Brexit extension.
    In the meantime, the House of Commons is debating right now 
on whether or not to vote on the Prime Minister's withdrawal 
agreement bill. If this is passed, they will have 3 days to 
consider this legislation.
    While passage of Brexit is not guaranteed at this point, 
one thing I warn all of my colleagues to avoid is vowing to 
block any potential U.S./U.K. bilateral trade deal. Not only is 
this dangerous message sent to the millions of British citizens 
who voted in favor of leave, but this mentality could also have 
unintended consequences on our own economy.
    Trade is good. Trade with one of our oldest allies is even 
better. A bilateral deal with the U.K., should they eventually 
leave the EU, would benefit both economies and our 
constituents.
    I look forward to hearing from both of you today, and with 
that I will yield back to the chairman.
    Mr. Keating. Well, thank you. And consistent with my 
opening statement, I will note that the U.K. Parliament has 
just started voting on the second reading of the withdrawal 
agreement as we are hearing testimony right now.
    Now I will call on Representative Cicilline for an opening 
statement.
    Mr. Cicilline. Thank you, Chairman Keating and Congressman 
Kinzinger, for holding this hearing today, which, as you just 
mentioned, could not be more timely on the subject of Brexit's 
impact on Northern Ireland. I appreciate especially the efforts 
of my good friend, the chair of our subcommittee, on the issue 
of Brexit's impact on the Republic of Ireland and Northern 
Ireland.
    Over the past 3 years, I have worked with him, Chairman 
Richie Neal, and many other members from both sides of the 
aisle to reinforce to our friends in the U.K., Norther Ireland, 
and Ireland that any Brexit deal must preserve the Good Friday 
Agreement.
    Along with Chairman Keating, Chairman Neal, and our friend 
and colleague, Congressman Kennedy, we recently published an 
op-ed in The Boston Globe on the importance of a Brexit deal 
that maintains the Good Friday Agreement, and I would ask 
unanimous consent to have that placed in the record.
    Mr. Keating. Any objection? I hear none.
    Mr. Cicilline. I was pleased to learn last week that the 
U.K. and the EU had reached an agreement, which is supported by 
the government of Ireland, that would preserve free movement of 
goods and people between Ireland and Northern Ireland. 
Unfortunately, as has so often been the case with Brexit, there 
appear to be some roadblocks moving this forward.
    I very much look forward to the testimony today and to 
hearing how U.S. policymakers can continue to play a role in 
pushing for a resolution that will preserve this very important 
Good Friday Agreement.
    I thank our witnesses for being here, and I yield back, Mr. 
Chairman.
    Mr. Keating. Well, thank you.
    I will now introduce our witnesses. Dr. Amanda Sloat is a 
Robert Bosch Senior Fellow in the Center on the United States 
and Europe at The Brookings Institution. Dr. Sloat is also a 
fellow with the Project on Europe and the Transatlantic 
Relationship at the Harvard Kennedy School Belfer Center, and 
former Deputy Secretary of State for Europe and Eurasia.
    You will notice when I say ``Harvard'' or ``Ireland'' there 
is a little bit of an accent there. I apologize for that, but 
it is hard to control.
    We also have joining us Dr. Henry Farrell. He is a 
professor of political science and international affairs at 
George Washington University's Elliott School of International 
Affairs. He was previously a fellow at the Woodrow Wilson 
Center for International Scholars and assistant professor at 
the University of Toronto.
    We appreciate you being here today. It is a busy time, and 
I know your schedules were very challenging. And we would like 
to call on you to give your opening statements; ask you to 
limit it to 5 minutes. Without objection, your prepared written 
statements will be made part of the record.
    I will now go to Dr. Sloat for her statement.

 STATEMENT OF AMANDA SLOAT, PH.D., ROBERT BOSCH SENIOR FELLOW, 
     CENTER ON THE UNITED STATES AND EUROPE, THE BROOKINGS 
                          INSTITUTION

    Dr. Sloat. Chairman Keating, Ranking Member Kinzinger, 
distinguished members of the subcommittee, thank you for your 
invitation to discuss the importance----
    Mr. Keating. Is your microphone, is that--is your 
microphone on?
    Dr. Sloat. There we go. Chairman Keating, Ranking Member 
Kinzinger, distinguished members of the subcommittee, thank you 
for the invitation to discuss the importance of protecting the 
Good Friday Agreement from Brexit. As a former HFAC staffer 
with Chairman Lantos, it is a pleasure to be on this side of 
the dais.
    Although Northern Ireland was rarely discussed during the 
2016 Brexit referendum campaign, the challenge of addressing 
the region's unique status has become the biggest obstacle to 
finalizing the U.K.'s withdrawal from the EU, yet there have 
been insufficient consideration of how these contentious 
debates have already affected the region.
    I would like to submit my testimony for the record and will 
limit myself to a few brief points now. The April 1998 signing 
of the Good Friday Agreement enabled a comprehensive approach 
to governance and security in Northern Ireland. It took 
constitutional debates off the table. The U.K. government 
reduced its military presence, and paramilitary groups 
decommissioned their weapons.
    An assembly with a power-sharing executive ensured both 
communities were represented in decisionmaking, and the EU 
membership of the U.K. and Ireland made the fragile peace more 
viable. The agreement did not fully resolve all tensions, but 
the region slowly began moving in the right direction.
    Unfortunately, Brexit debates have hindered this progress. 
Much of the debate, as all of you have noted, has focused on 
the economic implications of Brexit, including the need to 
protect the EU single market, while at the same time preventing 
the establishment of customs infrastructure on the Irish 
border.
    In my limited time, I want to highlight a few other 
consequences of these debates. One of the most tragic 
consequences of Brexit is that it has destabilized local 
politics by forcing people to choose sides between the British 
and the Irish governments. The clever compromise at the heart 
of the Good Friday Agreement enabled people to take a break 
from identity politics.
    Unionists remained part of the U.K. and felt reassured the 
province's status could only be changed at the ballot box, 
while Nationalists felt Irish and had a greater say in local 
affairs. Brexit has brought back the old polarization, 
including questions about the region's constitutional future.
    On governance, Northern Ireland has been without a 
government since January 2017, actually breaking the Guinness 
World Record for the longest period without a government 
anywhere. The power-sharing executive collapsed over a domestic 
political dispute, while repeated efforts to restore the 
government have failed.
    Civil servants keep the light on, but they are reluctant to 
make politically sensitive decisions without ministerial 
oversight. The U.K. Secretary of State for Northern Ireland has 
nominal oversight, and Westminster has passed a budget to keep 
the region solvent. If there was a no-deal Brexit, civil 
servants in London have recommended reimposing direct rule to 
manage the consequences.
    There have also been concerns that Brexit could adversely 
affect numerous rights, including equality rights enshrined in 
the Good Friday Agreement, fundamental rights deriving from EU 
membership, and labor and employment rights deriving from EU 
law.
    The most prominent concern has been the handling of the 
agreements provision that allows those born in Northern Ireland 
to hold British passports, Irish passports, or both.
    Finally, on the security front, it can be easy to forget 
that Northern Ireland remains a post-conflict society. Less 
than 7 percent of children attend integrated schools. 
Punishment beatings by paramilitary organizations increased 60 
percent from 2013 to 2017. And there are more peace walls now 
than in 1998.
    There is continued instability, including the death of a 
journalist in April as the chairman mentioned, and continued 
threats from dissident groups. Although people there do not 
expect a return to the large-scale violence we saw during the 
Troubles, police chiefs have warned that customs infrastructure 
could be attacked.
    Turning to U.S. engagement, for decades there has been a 
bipartisan consensus in Washington about the importance of 
promoting and preserving the peace process in Northern Ireland. 
This dates back to Presidents Jimmy Carter and Ronald Reagan, 
who expressed support for a peaceful resolution to the 
conflict.
    In recent years, the U.S. administration has provided 
envoys to help facilitate the peace process. George Mitchell 
helped broker the Good Friday Agreement, Richard Haass helped 
save the agreement by pushing the IRA on decommissioning, and 
Gary Hart supported talks that prevented the collapse of the 
institutions.
    The Trump Administration has declined to fill this 
position, with former Secretary of State Rex Tillerson 
informing Senate Foreign Relations Committee Chairman Bob 
Corker that it was retired. Beyond benign neglect, the Trump 
Administration has actively cheered for extremists in Britain 
who want a no-deal exit from the EU, no matter the cost to 
Northern Ireland.
    The President has encouraged the U.K. to abandon divorce 
talks with the EU, which he views as a foe, in favor of a trade 
deal with the U.S.
    Some congressional leaders, as has been noted, have already 
flagged the costs of a no-deal Brexit for Northern Ireland, 
including the speaker and the co-chairs of the Friends of 
Ireland Caucus. The U.S. could accept any Brexit deal apart 
from no deal. In an ideal world, we would have helped 
facilitate dialog among the parties as we have in the past.
    At this stage, interventions from the Administration that 
champion one side to its own advantage are seen as disruptive 
rather than helpful. At a minimum, we should refrain from 
advocating a disastrous no-deal Brexit that the British 
government's own contingency plans show would have a 
significant negative effect.
    Peace should not be a partisan issue, nor should this be a 
zero-sum exercise in which political leaders feel compelled to 
back either the British government or the Irish government. As 
conflict rages across the globe, all sides should be united in 
protecting the hard-earned peace dividends of Northern Ireland.
    [The prepared statement of Dr. Sloat follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Keating. Dr. Farrell.

   STATEMENT OF HENRY FARRELL, PH.D., ASSOCIATE PROFESSOR OF 
POLITICAL SCIENCE AND INTERNATIONAL AFFAIRS, ELLIOTT SCHOOL OF 
    INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON UNIVERSITY

    Dr. Farrell. Chairman Keating, Ranking Member Kinzinger, 
distinguished members of the subcommittee, thank you very much 
for inviting me to be here today. Like Dr. Sloat, I will 
confine myself to a few relatively brief points.
    First of all, it should be clear that Brexit was inevitably 
going to stress the Good Friday Agreement. The European Union 
has played a very important role in the lead-up to the Good 
Friday Agreement.
    And it, first of all, helped to drain some of the political 
tensions between the United Kingdom and Ireland when both were 
members. The tensions over the border issue and over 
territorial issues became less relevant. It created a context 
in which Northern Ireland politicians could come together in 
Brussels and in Strasbourg in order to try and fight for their 
constituents.
    And, quite importantly, the fact that there was a Customs 
Union meant the abandonment of customs posts between Northern 
Ireland and the Republic of Ireland, hence making the border a 
less physically visceral thing.
    So when the Brexit problems began to emerge, there was a 
lot of fear, which continued until the last couple of weeks, 
that we might be a no-deal Brexit. And if we saw a no-deal 
Brexit, this would have had extraordinarily negative 
consequences for the peace in Northern Ireland. We would have 
seen the emergence of a hard border between Northern Ireland 
and the Republic, which inevitably would have become a target 
for Republican dissidents and given them a cause to organize 
around.
    We also would have seen substantial economic hardship on 
both sides of the border, which would have, in turn, very 
likely generated political pressures that might have led to an 
increase in tension and perhaps helped push toward increased 
violence.
    And, most importantly perhaps, we would have seen a very 
undefined set of relations between the islands of the United 
Kingdom and Ireland, and between Northern Ireland and the 
Republic, which would have generated the sense that there were 
possibilities open there that were up for grabs, which are a 
variety of parties, some of them well-intentioned, some of them 
definitely less well-intentioned, might have sought to seize 
upon for their own particular purposes.
    So the belief that there was a high likelihood up until the 
last couple of weeks of a no-deal Brexit caused a lot of worry 
and fear and angst. The deal that we have at the moment that is 
currently being considered by the House of Commons, from the 
perspective of Northern Ireland peace, it is not perfect by any 
stretch of the imagination, but it is far better than the 
alternative, which drew a lot of attention.
    So if we see what is happening in the deal, the two key 
arrangements from the perspective of peace in Northern Ireland 
are as follows.
    First, there is a very, very complex customs arrangement 
under which Northern Ireland would still be nominally part of 
the United Kingdom from the perspective of doing international 
trade deals, but in practice would be effectively 
subcontracting out the administration of European Union customs 
arrangement within the Northern Ireland space. This would be 
extremely hard to administer.
    There are a lot of complex questions about how it will be 
administered, but it would at least mean that the key border 
will be a border between the island of Great Britain and 
Northern Ireland, rather than between the Republic and Northern 
Ireland, hence making it less likely that there is going to 
be--going to be things for Republican dissidents to organize 
around.
    And also, there is an assent process by which the Northern 
Ireland Assembly as a whole, through a majority vote, or 
ideally through a vote of both communities, can effectively 
pass judgment upon the arrangement.
    So this is a lot better, but it is far from perfect. The 
unionist community is extremely unhappy, especially the 
Democratic Unionist party, which feels that it has been 
betrayed, and we see the possibility of stress on the 
institutions. As Dr. Sloat mentioned, the Assembly has 
effectively been out of action, as has been the government of 
Northern Ireland for the last 2 years. And bringing the 
Assembly together to vote upon this may create a set of future 
stress points, which may be problematic.
    What the United States can do is what it has been 
continuing to do, at least on the House and the Senate side, 
which is to continue to express strong support for the peace 
process in Northern Ireland. The U.S. role, as has been noted 
already, has been extremely positive, and there may be some 
scope for reaching out to and reassuring the Unionist 
community.
    Effectively, there is a lot of angst and tension in the 
Unionist community, and a lot of fears that they are going to 
be bumped into a united Ireland, that there is now a majority, 
or close to a majority, for support for a united Ireland, and 
that the Republic of Ireland is looking to maneuver in order to 
make this happen.
    This is, frankly, not at all a likely prospect. The 
Republic of Ireland, if it has learned anything from the Brexit 
debacle, it is that having a narrow majority and a referendum 
is not a recipe for political stability and, hence, the 
Republic of Ireland is not particularly interested in pushing 
forward toward any short-term destabilizing arrangements.
    And to the extent that the United States can help to 
reassure the unionist community that the principle of consent 
of both communities is still important and is still the 
cornerstone of the Anglo-Irish Agreement, this would plausibly 
help perhaps to at least alleviate some of the tensions.
    Thank you.
    [The prepared statement of Dr. Farrell follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Keating. Well, thank you. This is an unusual set of 
events. I am now going to report that the vote passed 329 to 
299 on the second reading to the withdrawal agreement bill, 
which means it will advance for further consideration, and we 
will learn shortly the results of the next vote on the 
timetable for consideration.
    I do want to just start asking a couple of questions, and I 
think Dr. Farrell really touched this. But if you both could 
maybe expand on it a little bit, and that is, you know, 
regardless of what agreements may or may not be made, you know, 
the people of Northern Ireland voted not to leave the EU in the 
2016 referendum, and many citizens and political leaders feel 
they have not had a voice in the Brexit negotiations.
    So if you could, you know, we see a lot of the officials 
moving, but what effect do you think, you know, the sentiment 
behind that vote has on success perhaps going forward? Or it is 
very important what the people have felt themselves, and there 
are reports that many of those people feel left out of that 
process.
    Dr. Sloat. I thank you very much for the question, as well 
as for the play by play updates on what is happening in London. 
I would make two broad points. One, Brexit has certainly 
polarized politics across the U.K. You are absolutely right 
that there was a majority in Northern Ireland that voted to 
remain in the European Union. It was the same in Scotland, the 
same in London, and so you have got a certain amount of 
unhappiness across the country at being forced to go along with 
something that they, within their nations and regions, did not 
necessarily support.
    The broader problem I think with people being left out of 
this is the fact that you have not had a government sitting in 
Northern Ireland for almost 3 years. Northern Ireland certainly 
has elected representatives to the British Parliament.
    Sinn Fein, for historical principled reasons of not 
supporting/recognizing the Queen, or recognizing the British 
government, do not take up those seats in Westminster, which 
means that those from the Nationalist community that voted for 
Sinn Fein do not have a voice in these debates, and you have 
the Democratic Unionist party playing almost an oversized role 
in these debates in London, given their role in supporting the 
Conservative government.
    So, really, I think the biggest factor in excluding the 
voices of the people has been the lack of localized governance 
in Northern Ireland for so many years.
    Dr. Farrell. Just to reinforce what Dr. Sloat has said, the 
other question that I think maybe is not as clear from this 
side of the Atlantic is how much there is a set of pragmatic 
costs to the current situation, as well as the tensions between 
the two communities.
    So if, for example, one looks to the business community in 
Northern Ireland, if ones looks to farmers in Northern Ireland, 
you will see there that there is certainly some--there has been 
some concern about the bigger political consequences, but there 
also have been real fears about the ways in which the chaos and 
the tension and the possibility of a no-deal might have led to 
economic crisis, might have led to supply chains between 
Northern Island, the Republic of Ireland being disrupted, might 
have led to what has become effectively a single antiquated 
agricultural economy, suddenly finding that the crucial 
connections have been severed and trying to figure out how to 
reweave the threads.
    So there has also been a very pragmatic sense that a deal 
has to be done, and this also has consequences for the 
Democratic Unionist party, many of whose supporters are 
probably a little bit more pragmatic than some of the leaders 
might suggest in their public comments.
    Mr. Keating. You know, I have really been impressed talking 
to Ireland officials. You know, many of them just use the 
scenario that things have gone so smoothly generally with what 
has occurred in the border area that it is almost like starting 
from scratch.
    And they impressed on me how dealing with, as you said, Dr. 
Farrell, the practical side of this, there are so many 
situations that are not even anticipated. How long could this 
stretch out? Even if there is a negotiation, even if things are 
worked out, this is extremely complex, and I do not think 
people here fully realize that.
    Dr. Farrell. For a very long time is the answer. So we have 
a transition period of another 2 years. We also have a lot of 
arrangements, and I should stress here I am a political 
scientist. I am not a lawyer.
    But there are a lot of arrangements in the text which are 
going to be extremely difficult to work out in practice, and 
very, very complex arrangements, in particular, around the 
application of customs, the application of value-added tax, to 
try and create this--to turn a complicated political fudge into 
something which business people can practically deal with in a 
daily sense.
    And so the political solution is extremely important for 
peace. The pragmatic consequences are going to take a lot of 
further work.
    Dr. Sloat. I would just add that even if we do get a deal 
in the near term, we really are only at the end of the 
beginning. We have essentially finalized the divorce. We now 
need to work out what the future relationship is going to look 
like, and there are lots of different permutations, some of 
which see the U.K. more closely aligned with the EU, and others 
seeing it much further apart.
    And the reality of these provisions for Northern Ireland, 
as Dr. Farrell mentioned, is that the more closely aligned the 
U.K. stays with the EU, the less friction there is going to be 
on the border, and the less separation from Northern Ireland 
with the rest of Great Britain.
    The more deviation, the easier it is going to be for the 
U.K. to negotiate free trade agreements with the United States 
and others, it will have greater challenges with Northern 
Ireland. So it is going to be very difficult for the U.K. to 
have it both ways, and they are ultimately going to need to 
make a fundamental decision about how they want to align 
themselves, especially in regulatory terms.
    Mr. Keating. I would just remind everyone that 80 percent 
of our trade activity is with EU in that regard, so it is 
something our country is not going to take too lightly or in a 
bilateral sense.
    I now yield to the ranking member Mr. Kinzinger, for his 
questions.
    Mr. Kinzinger. Thank you, Mr. Chairman. Obviously, there is 
a lot we do not know, so I think you guys both did a great job 
of kind of explaining the situation and the difficulties and 
the unknowns, and we do not know until we know. So maybe the 
chairman will get us some more information in the next 12 
seconds. Who knows?
    But I do want to ask on a couple of things, and I will ask 
both of you. Talking about the lack of a government in Northern 
Ireland, can you go into maybe some of the reasons of why, what 
are the disagreements, and also, has that been complicated by--
specifically because of this negotiation and because of Brexit? 
I will start with whoever wants to go first.
    Dr. Sloat. The short answer is yes. So the Assembly 
initially collapsed over a domestic dispute. There were 
criticisms of the way a domestic green energy scheme had been 
handled, and so that was the thing that precipitated the 
initial crisis. The institutions have always been very 
precarious. There is narrow trust between the two parties, and 
so once the trust fell apart it was very difficult to get it 
back together.
    You then started to have disputes over interest by the 
Nationalist community in bringing the Irish Language Act into 
effect in Northern Ireland, which was something that the 
Unionist side had objected to. So that was the dispute on the 
ground, but certainly the broader tensions over Brexit ended up 
making politics there much more polarized and ended up 
increasing the difficulty of getting the Assembly stood back 
up.
    Mr. Kinzinger. OK.
    Dr. Farrell. This is further likely to be magnified by the 
current arrangement under which the Assembly would have to be 
brought back in, and would have to effectively vote upon 
whether or not it approves the current arrangement. So if you 
want to be optimistic, you could see this as being a possible 
reason and rationale to bang heads together and to get both 
sides to agree.
    If you want to be pessimistic, you could look at the stakes 
at play, at the way that the Democratic Unionist party says 
that it has been betrayed, and you might see this as becoming 
yet another reason why it is difficult to get the Assembly back 
working and get back to a situation of normality or whatever 
approximates best to normality in Northern Ireland.
    Mr. Kinzinger. Dr. Sloat, you said--you were talking about 
the unfilled envoy position. Dr. Farrell addressed Congress' 
role, but the United States played an important role in the 
peace talks and the Good Friday Agreement and in the violent 
war. Can you tell me what we are doing now to preserve it, or 
are we just absent on it? I guess executive branch specifically 
because Congress is--we are doing this.
    Dr. Sloat. Right. That would be an executive branch role, 
and I do not want to speak on behalf of the State Department. 
My understanding is that officials within the State Department 
have continued to have conversations with the British 
government, with the Irish government. Certainly, at an 
official level, their policy is to continue to support the Good 
Friday Agreement, and to have an agreement on a deal between 
both sides that preserves economic stability.
    But there certainly does not seem to be any effort the way 
there had been in previous administrations of both political 
parties that has a designated figure that essentially does a 
lot of shuttle diplomacy on the ground between the two 
governments as well as between the political parties in 
Northern Ireland itself.
    Mr. Kinzinger. Is your sense that they are just waiting 
until there is an agreement or that it is just a lack of 
interest?
    Dr. Sloat. Well, what I have to go by is, the letter that 
Secretary Tillerson provided to Chairman Corker, which made a 
case for saving the money that had been spent on the envoy and 
having that role fulfilled by the Bureau of European and 
Eurasian Affairs in the State Department instead, and also 
indicating that when the Assembly had been stood up, which was 
the point at which the letter had been submitted, the 
Administration did not see a reason to have an envoy in place.
    Mr. Kinzinger. OK. Dr. Farrell, we know that the 
installation of barriers along the Irish border could possibly 
lead to instability. In the event of a no-deal Brexit, which we 
obviously hope is not the case, could an open border that 
deploys new technology be maintained?
    Dr. Farrell. So certainly there has been discussion of new 
technology. This was a major topic during the negotiations 
where the United Kingdom effectively said that it should be 
possible with new technologies to create a seamless and 
invisible border.
    However, the United Kingdom never produced anything in the 
way of specific plans to show how this could be plausibly 
implemented, and hence the strong belief on the European Union 
negotiator side, and also I believe among many political people 
in Ireland, was that this was effectively an effort to see if 
they could get a fudge created, which would not provide an 
actual border but which would instead sort of provide a 
political deal which would allow both sides to say that the 
problem had been resolved, even while the prospect of smuggling 
and other things across the border went more or less sort of 
unacknowledged.
    And the European Union was particularly strongly against 
this because, as has been mentioned already, this is the only 
land border that would exist between the United Kingdom and the 
European Union, and hence they did not want this to be a source 
of significant economic abuse of the system.
    And the final thing that should be noted here is that there 
has been a lively underground economy on both sides of the 
border, which has sought to finesse various differences between 
regulation, for example, of gasoline for industrial uses. This 
has been one of the things that helped keep the Troubles going 
for along period of time, so that the issue of cross-border 
smuggling has security as well as economic consequences.
    Mr. Kinzinger. Thank you both. I yield back.
    Mr. Keating. Latest news, the vote on the timetable has 
failed, so it looks like we may be waiting to hear from the EU 
on the extension.
    The chair recognizes Representative Cicilline. Good luck, 
Representative Cicilline, with that.
    Mr. Cicilline. Our entire committee is in your debt for 
those updates, Mr. Chairman.
    Thank you to our witnesses. Obviously, this cross-border 
cooperation is one of the most important parts of the Good 
Friday Agreement, and I wonder if you would speak for a moment 
about the potential reestablishment of border controls and 
whether or not in any important way that would undermine the 
Good Friday Agreement, and how in particular the populations 
that are living near the border are likely to respond to any 
additional border controls.
    Dr. Farrell.
    Dr. Farrell. At the moment, it appears under the current 
deal, if it does get through whatever hurdles--and I am very 
grateful to be informed on a moment-by-moment basis--the 
current deal would not involve any formal border controls at 
all. The idea, then, would be that whatever border controls 
would exist would exist in the Irish Sea between Great Britain 
and Northern Ireland. So that effectively there will be 
controls of material coming in and out.
    So the arrangements are extremely complex, but the idea is 
that there will be specific controls that would seek to ensure 
that material or goods which came into Northern Ireland, and 
which were destined for elsewhere in the European Union, would 
then sort of be taxed at the relevant rates.
    And if you were importing something which had a tariff on 
it, purely for use in Northern Ireland, you would be able to 
apply for a rebate of the tariff. Obviously, how this would 
work in practice is open to question. There are a lot of 
details to be ironed out, to put it mildly, but what it does do 
is to ensure that the risk of a physical border between 
Northern Ireland and the Republic, which could become a magnet 
for various forms of dissident activity, that this risk appears 
to have been avoided, assuming that the current deal actually 
goes through and sticks.
    Mr. Cicilline. Dr. Sloat, do you agree? Assuming that that 
deal is approved and sticks, and all of those logistics can be 
worked out, that none of the provisions will undermine the Good 
Friday Agreement?
    Dr. Sloat. Well, I think----
    Mr. Cicilline. There is a lot of conditionality, I 
recognize----
    Ms. Sloat [continuing]. As well, and to the chairman's 
update, the British Prime Minister had indicated that if this 
was the outcome that he was likely to move to early elections 
and an extension. So we will see how this plays out.
    As to the question of whether or not infrastructure would 
be disruptive, it would be hugely disruptive. I mean, it would 
create practical and economic challenges. You have farms that 
literally straddle the border, and so what will you do about 
sheep that are wandering across the border.
    You have hundreds of crossings on the border, which would 
be extremely difficult to police. You have the psychological 
aspect of people that lived through decades of violence and saw 
in recent years these checkpoints coming down. And as Dr. 
Farrell said, the police in Northern Ireland had been very 
clear that any checkpoints would be a magnet for attack by 
dissidents.
    There does seem to be an indication that the mechanisms 
that have been developed in this protocol do eliminate the need 
to have physical checks on the border. However, there are 
concerns about the potential for a border in the Irish Sea, and 
what this is going to mean for regulatory provisions in 
Northern Ireland, to the extent to which the U.K. ends up 
deviating from the EU in some of these economic and regulatory 
terms.
    There are also broader questions about how political 
figures in Northern Ireland will be involved in various 
mechanisms that will be overseeing these new institutions that 
have been created. So I think if the deal goes forward with the 
current protocol, it will at least address the situation on the 
border, but there are still going to be a number of 
complexities that are going to have to be addressed.
    Mr. Cicilline. And, Dr. Sloat, you mentioned part of this 
outcome will be determined on the nature of the relationship 
between the U.K. and the EU There are some who are suggesting 
that the United States should begin discussing a bilateral 
trade deal with the U.K. before a final Brexit deal is reached. 
Do you think that is a good idea? And what are the implications 
for Ireland, Northern Ireland, and the Good Friday Agreement, 
if any?
    Dr. Sloat. Well, in technical terms, the U.K. is not going 
to be able to sign free trade agreements with third countries 
until it is fully out of the European Union. If this current 
deal goes through, there is currently expected to be a 
transition period. At the moment, that would run until December 
2020. It is possible both sides could decide--or to extend 
that, so you certainly could have talks starting on a free 
trade agreement, but the U.K. is not going to be able to sign 
anything until the divorce is completely final.
    I think the U.K. is also going to have to make some broader 
decisions about how it wants to align itself, because it is 
going to be very difficult for the U.K. to be aligned with both 
the U.S. and the EU on things like agriculture, for example, on 
things like tech standards and data privacy.
    And so the challenge for Northern Ireland is that the 
further the U.K. deviates from EU standards, the greater the 
challenge that you are going to have with Northern Ireland 
being treated differently from the rest of Great Britain.
    Mr. Cicilline. Thank you so much. I yield back, Mr. 
Chairman.
    Mr. Keating. Thank you.
    Representative Pence.
    Mr. Pence. Thank you, Mr. Chairman, and Ranking Member 
Kinzinger, and Cicilline for asking my question. Thank you very 
much. That was perfect.
    My grandfather actually left during the Troubles because 
the north and the south could not get along back in 1921, I 
believe. So my heart is in Ireland, as are still many of my 
relatives.
    Thank you for being here today. Indiana Hoosiers conduct 
business all over the world exporting products and services 
from the Hoosier State to everywhere. This includes the United 
Kingdom and the Republic of Ireland. The Republic of Ireland 
represents the Hoosier State's 8th and 14th largest export 
markets, respectively, the United Kingdom and Ireland.
    Both of you make references to the effects Brexit, more 
broadly and specifically the situation we are discussing here, 
could have on trade relations with the United States. In your 
view, what is the ideal resolution, given the votes and the 
things that are happening immediately today, changing 
situation, that could result in the best possibility of the 
U.S./U.K. free trade agreement? And how can the United States 
be most supportive of this result right now focusing on trade?
    Dr. Farrell. As Dr. Sloat says, there is a set of tradeoffs 
here. If you are primarily concerned about peace in Northern 
Ireland, then the closer that the United Kingdom and the 
European Union are aligned with regard to regulation, with 
regard to a possible customs union, with regard to the kinds of 
machineries of the single market, this extraordinarily 
complicated set of regulations, the better.
    So these things, the closer that the United Kingdom and the 
European Union are, the better it is for peace in Northern 
Ireland. Obviously, that means that the closer that the EU and 
U.K. are, the more difficult it is to create a kind of a deal 
with the United States on many of the issues that the United 
States is concerned with. So that I think is an important 
tradeoff that ought to be acknowledged.
    Dr. Sloat. I agree with all of that. I would just add that 
the worst outcome I think from the perspective of the peace 
process in Northern Ireland is for the U.K. to leave the 
European Union without a deal. I think while there are 
certainly tradeoffs and complexities in the deal that is 
currently on the table, it at least would go some ways toward 
addressing the situation in Northern Ireland.
    What I think is particularly harmful is encouraging the 
U.K. to leave the EU with no deal and simply to walk away, 
because under those conditions none of these provisions that we 
have been discussing would apply. And, in theory, the British 
and Irish governments would need to reimpose border controls on 
the island of Ireland. That would be very damaging for all of 
the reasons that we have been discussing.
    So certainly continuing to encourage the sides to reach an 
agreement and to have an orderly departure by the U.K. from the 
European Union would be the most satisfactory outcome.
    Mr. Pence. And if I can just add on to what Dr. Sloat says, 
in that situation, it would be actually quite likely that the 
United Kingdom would find itself being forced to submit itself 
to many European Union regulations without very much voice in 
the process.
    So, effectively, the U.K. and the European Union are 
already so closely and so tightly and intimately connected that 
it is going to be very, very hard for the United Kingdom to 
extract itself without a formal and orderly process of 
negotiation in a situation where the United Kingdom rockets out 
at the belief among many commentators is that the aftermath, 
the hangover, would be quite extreme for the United Kingdom, 
and that would effectively find itself having to accept as 
dictates from the European Union many of the things that it 
believes that it will be able to get away from.
    Mr. Pence. Thank you. I yield back.
    Mr. Keating. Thank you.
    Representative Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, for this 
hearing. It is timely, obviously.
    Given the vote that was just announced today, do either of 
you care to speculate on what scenarios you think may now 
develop as a result of the loss of today's vote by the Prime 
Minister?
    Dr. Sloat. So just to summarize briefly, what it sounds 
like happened today, and where that leaves us, Boris Johnson 
renegotiated the Brexit deal that his predecessor, Theresa May, 
had negotiated with the European Union, removing the backstop 
for Northern Ireland, which was very unpopular, and replacing 
it with this protocol for Ireland.
    Boris Johnson tried to bring that for a vote in Parliament 
on Saturday. Parliament made the decision not to vote on that 
and instead to introduce an amendment that would force the 
government to ask the EU for an extension and prevent there 
from being a no-deal outcome.
    So today he ended up bringing the implementing legislation 
to a vote in Parliament. It was the second reading today, which 
it sounds like Parliament passed. It is then expected that it 
would open up a whole raft of amendments on things like a 
customs union and a referendum.
    The second vote was the program motion, which was 
essentially the timetable for passing this legislation. Members 
only got the 115-page bill yesterday. There has been a lot of 
concern that they have not been able to scrutinize it. You 
would not be able to have committee hearings.
    Boris Johnson wanted them to complete the process on the--
--
    Mr. Costa. He was forcing the issue.
    Ms. Sloat [continuing]. By Thursday. Absolutely. Because he 
wants to be able to say that the U.K. is leaving by the 31st. 
What he previously indicated was that if this program motion 
was not supported, his timetable was not supported, that would 
make it very difficult for him to leave on time and he was 
likely to call for general elections. So if I had to predict 
what was going to happen, I suspect that we will now see the EU 
grant some sort of extension, potentially until the end of 
January, if not longer, and the U.K. will move to general 
elections, and this Brexit debate will get punted for longer.
    Mr. Costa. Do you concur, Dr. Farrell?
    Dr. Farrell. I do, yes.
    Mr. Costa. Well, and then obviously that potentially sets 
up a situation in which--do you believe under any circumstances 
that a part of a call for new elections might include a new 
referendum on Brexit? I know that has been discussed by some.
    Dr. Sloat. The second referendum would entirely depend on 
who won the election. Boris Johnson and the Conservative Party 
do not support a second referendum. The Liberal Democrats have 
argued that if they are elected, they would revoke the Article 
50 notification to leave the EU and not even have a second 
referendum. And the Labour Party has tended to prevaricate on 
this. Its leader----
    Mr. Costa. Yes.
    Ms. Sloat [continuing]. Jeremy Corbyn----
    Mr. Costa. That is a nice term.
    Ms. Sloat [continuing]. Has indicated that he would want to 
negotiate a better Brexit deal than Johnson's, and he would 
then bring that to a referendum where people could choose 
between his new deal and staying in. So it really is going to 
depend on the outcome of the election, and you would need to 
have either a Labour government or a Labour-Liberal coalition 
for a second referendum to be possible.
    Mr. Costa. But both within the Labour government and within 
the Tory government, we have seen an erosion of confidence 
among MPs within both parties. And what that portends in terms 
of new elections, I do not know that anyone can speculate at 
this time. Is that correct?
    Dr. Farrell. That is reasonably correct. What I would say 
as well is that one of the things that has changed over the 
last couple of years, is increasing in patients in the European 
Union's other member States----
    Mr. Costa. Yes.
    Mr. Farrell [continuing]. About the process, and there is a 
distinct--there will be a distinct reluctance I think among 
some European Union member States to have the United Kingdom 
come back into the club, you know, given the political chaos 
that would likely accompany.
    Mr. Costa. Well, as the chair of the Transatlantic 
Legislators Dialogue, we are scheduled to meet again in Finland 
in the first of November, and I believe this should be a focus 
of our agenda in terms of discussion.
    The comments that I have gotten from our European allies, 
those in the EU, is that their impatience and their frustration 
just continues to grow, and they are preparing for an EU 
without the U.K. But the impacts on the economies I think are 
going to be greater felt by the United Kingdom than they will 
be by the European Union. What do you think?
    Dr. Farrell. With the exception of Ireland--Ireland is the 
other country which, unsurprisingly, is going to be directly 
affected by a Brexit, especially a hard Brexit, because many of 
the transport and logistic routes through which products reach 
Ireland effectively go through the United Kingdom.
    So this was one of the last gasp efforts of the United 
Kingdom to try and push Ireland--the Republic to weaken, was 
effectively to suggest that Ireland would be dragged down in 
the chaos, if it did not agree to significant concessions. But, 
in general, the United Kingdom, the consensus seems to be that 
it is going to be significantly worse affected than pretty well 
any other member State in the situation of a hard Brexit.
    Mr. Costa. Yes. Well, my time has expired, but I am very 
interested in, obviously, whether or not a Finnish-type 
resolution to this might be in the asking.
    Mr. Keating. Well, all right.
    Mr. Costa. It is like trying to predict the future, right?
    Mr. Keating. All right. The gentleman's time----
    Mr. Costa. Thank you. Thank you, Mr. Chairman.
    Mr. Keating [continuing]. Has expired.
    Representative Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Dr. Sloat, in your written testimony on page 4 under 
Consequences of Brexit, dealing first with the economy, you 
state ``A no-Brexit deal would create significant economic 
risk, including the projected loss of 40,000 jobs and an 
estimated decline in exports to Ireland of 11 to 19 percent.''
    My question to you is, what impact would an Irish Sea 
customs border have on Norther Ireland's economy? If you can 
speak on that.
    Dr. Sloat. I do not have a detailed answer on that. This 
was something that was just agreed between the two sides in the 
last couple of days, and so there are a lot of economists in 
the U.K. and Ireland who are smarter than I am on trade things 
who are looking into this. I would be happy to take the 
question and try and find some analysis on that to provide, but 
I do not have a good sense off the top of my head.
    The one thing that I will say is that the risk of a no-deal 
Brexit would be the most economically disastrous for Ireland in 
particular, as Dr. Farrell was discussing, as well as for 
Northern Ireland. And so certainly any sort of negotiated 
agreement that leads the U.K. to leave the EU with a deal is 
going to be less damaging economically than a no-deal scenario 
would be.
    Mr. Guest. And, Dr. Farrell, do you believe that, that the 
worst-case scenario is a no-Brexit deal as far as effect on the 
economy and any sort of deal, including an Irish Sea customs 
border would not adversely--would not as adversely affect the 
Irish economy as a no-Brexit?
    Dr. Farrell. That is entirely correct, sir. So as Dr. Sloat 
says, we do not have any very good estimates of what the 
current deal is. But what we can say is that the Northern 
Ireland business community, while concerned about many of the 
fuzzy areas and how easily it is going to be to implement some 
of the complex arrangements, it is at the stage of talking 
about details, trying to get the government to commit to 
specifics, rather than as with a no-deal Brexit, telling the 
governments on both sides and, indeed, the European Union 
negotiators as well that this was potentially going to be 
disastrous.
    So I think that we are in a situation where we have moved 
from a situation of potential dire harm to the economy to messy 
and painful and difficult-to-understand regulations, which are 
probably going to have some significant consequences and may 
have long-term political consequences in terms of making the 
island of Ireland into a more robust and more unified economy, 
but which is not going to be an economic disaster under I think 
any plausible read, at least that I have seen, of what is the 
likely future scenario.
    Mr. Guest. And, Dr. Sloat, one other thing that you 
mentioned in your report as talking about--you categorize as 
polarized attitudes. It says Brexit has brought back the old 
polarization, including questions about the region's 
constitutional future.
    A September poll by Lord Ashcroft found 51 percent in favor 
of joining Ireland with results divided among community lines. 
More than half of those surveyed believe Brexit strengthens the 
case for Irish unification.
    My question to both of you is, what do you see as the 
likelihood of Irish unification in the near future?
    Dr. Sloat. Part of that I think ends up depending on the 
way Brexit plays out. I think if you had a no-deal Brexit that 
resulted in a hard border, there probably would be growing 
support for reunification, due in part to the logistical and 
the psychological complexities that would be caused by the 
reimposition of a border.
    Certainly, all of the talk about the constitutional status 
of the border has unsettled politics there, and so you have 
discussion about the possibility of having a border poll a 
referendum on unification, which is an issue that had been 
largely quiet for the last 20 years since the Good Friday 
Agreement was signed. So I think that question is going to 
depend in large part on how Brexit plays out.
    Also, as we have been discussing, there are concerns about 
this new protocol for Ireland, the imposition of a border in 
the Irish Sea. And if you end up seeing significant deviation 
by Great Britain from EU regulations, that is going to end up 
creating more difference between Great Britain and Northern 
Ireland. It is also possible that that could contribute to a 
greater call for unification as well.
    Mr. Guest. And, Dr. Farrell, do you have anything you would 
like to add or anything that you--any disagreement you may 
have?
    Dr. Farrell. So I would say that the likelihood in the next 
number of years is low. I would also say that there is an 
important gap between Nationalist in Northern Ireland and most 
parties in the Republic of Ireland.
    So Sinn Fein very certainly would like to see Irish 
unification and has a strategy of becoming a political party 
and a player on both sides of the border, but the Irish 
government and the major Irish parties are I think quite 
opposed to the idea, although they will not say so publicly, of 
any Irish reunification in the near future.
    This is partly because the Republic has always been more 
ambivalent about unification in private than it has been in 
public. It has always viewed with some concern the likelihood 
of importing a new set of political instabilities and problems, 
and this has been reinforced, if anything, by the Brexit 
referendum and by looking at the island next door where you see 
a constitutional vote that was won by a very narrow majority, 
which has plunged the United Kingdom into an ongoing political 
crisis.
    And I think that the Republic of Ireland has no particular 
enthusiasm for any similar kinds of votes which would see a 
united Ireland happening, except with a quite broad degree of 
assent, including at least passive and grudging asset from the 
Unionist community.
    Mr. Guest. Thank you, Mr. Chairman. I yield back.
    Mr. Keating. Thank you.
    Representative Wilson.
    Mr. Wilson of South Carolina. Thank you, Chairman Keating, 
and thank both of you for being here today. I particularly 
appreciate you being here. I am very grateful. I grew up in the 
most British city of North America, Charleston, South Carolina. 
And I am very grateful for that heritage. And then we are also 
equally grateful for our Irish heritage. The Hibernian Society 
has always had a remarkable impact on our community, and so we 
just wish the best somehow for our British and Irish cousins. 
And I cannot wait for you to figure out how to get them back 
together.
    And with that in mind, both of you, what aspects of a new 
U.S./U.K. trade deal would be most beneficial to Northern 
Ireland's economy? What are the principal tenets of a deal that 
Congress should support in any implementing legislation?
    Dr. Farrell. Well, so the tradeoff here--and I think both 
of us discussed this to some extent in our written testimony--
is the question of whether--to the extent that Ireland--that 
the--sorry. Let me begin again.
    To the extent that Northern Ireland and the United Kingdom 
are closely aligned with the European Customs Union, this makes 
peace easier to accomplish. It means that the complicated new 
arrangements become less politically salient than they would be 
otherwise. To the extent that the United Kingdom breaks away 
from the European Union, this makes it easier to do a deal with 
the United States.
    So there is, in a sense, an important tradeoff there 
between U.S. interests in doing a deal, doing a commercial 
trade deal with the United Kingdom, and U.S. interests in 
encouraging continuing peace within Northern Ireland.
    Dr. Sloat. I think that is right. I mean, just to take a 
very specific example, if you take something like genetically 
modified foods, or, things within the agriculture industry, 
those are things that I would presume the U.S. Government is 
going to look for concessions from the British government on in 
agreeing a free trade agreement with the United States.
    If the U.K. agrees to make those concessions, it is likely 
to cause it to deviate from the European Union, and that is 
going to end up creating more complexities with the situation 
in Northern Ireland. So it is certainly not to say that the 
U.S. and U.K. should not have a free trade agreement, I do not 
think this should be a zero-sum negotiation. I do not think we 
should have to pick sides.
    But I think there is the reality, as Dr. Farrell was just 
laying out, that the further the U.K. deviates from EU rules, 
especially to make free trade agreements with third countries, 
the more complexity it is going to create in terms of the 
alignment in Northern Ireland.
    Mr. Wilson of South Carolina. I look forward to working 
with Chairman Keating on any legislation that might be 
appropriate to be of assistance. And, again, for each of you, 
how can the U.S. increase economic ties with Northern Ireland 
and support investment opportunities to help mitigate any 
negative impacts of the no-deal Brexit?
    Dr. Sloat. Well, hopefully we will not have a no-deal 
Brexit, and things at least have been moving in a closer 
direction to being able to do that. I think if we have a no-
deal Brexit, it is going to be very economically 
disadvantageous for Northern Ireland, and potentially is going 
to be very politically destabilizing and raise some security 
concerns.
    I think if there is a Brexit deal, certainly continuing to 
have American investment in Northern Ireland is going to be 
incredibly important. In my testimony, I cited a study by 
Invest Northern Ireland that had counted nearly 900 
international companies employing around 100,000 people in 
Northern Ireland.
    And so certainly the message from the region in the last 
couple of years had been that they were open for business. You 
have an educated population. They speak English. You have had 
call centers there. You had Game of Thrones and other TV and 
movies that were filmed there.
    So I think there is enormous economic and investment 
potential in Northern Ireland. And hopefully, if we are able to 
get to a place where Brexit is resolved, we will be able to 
have continued investment there.
    Dr. Farrell. And to add to what Dr. Sloat said, it is clear 
that the current deal has many complexities, many regulatory 
complexities, which will make life more complicated in Northern 
Ireland. But given I think the native Irish ability to figure 
out an angle on stuff, I would suspect that there are going to 
be also some interesting opportunities from being the part of 
the United Kingdom that is directly aligned with the European 
Union. That may also have some important implications in terms 
of inward investment and other possible ways to play the rules 
so as to advantage the local economy.
    Mr. Wilson of South Carolina. And I thank you, and I 
believe, indeed, the Irish people have overcome many obstacles 
in the past and can do that in the future.
    Thank you very much. I yield back.
    Mr. Keating. All right. I thank the gentleman. I thank our 
witnesses today.
    I cannot think of many days in maybe months, going back 
months, that are more challenging for members than today with 
everything that is going on in Congress on the House side than 
today, and I not only thank the witnesses but I thank the 
members of the committee, Chairman Engel of the full committee, 
in working his way here, but it is difficult today.
    But just as a note of conclusion, which just seems like the 
wrong word dealing with this subject in any respect. I think 
the witnesses today and the questions from our members brought 
forth the idea that there are many contingencies in front of 
us, many results from that. Some of them are foreseeable.
    I think many of them are completely unforeseeable because 
they are so complicated, and the more you bear down, the more 
that problems will surface. So this will not be the end of the 
discussion that we have on this.
    I do think, generally speaking, that from an economic 
standpoint the enemy of business is uncertainty, and this is a 
whole new level of uncertainty, not just for the U.K., not just 
for the EU, but globally as well and back here.
    We can see how investments and future trade issues and how 
financing all can be compromised in an environment of 
uncertainty. And so I hope that we move forward. I hope that 
the U.K. can move forward, hope the EU can move forward in that 
respect.
    There is one thing I am certain about, and that is the fact 
that despite not having an envoy in place that this committee, 
the Foreign Affairs Committee, is deeply interested and 
concerned on this issue. We have a history, as I mentioned in 
my opening remarks, as a country that I think was vitally 
involved in the Good Friday Agreement.
    Our best allies come from U.K. and the European Union and 
Ireland. So we have a lot at stake right here in our own 
country. So we shall hope for the best, keep track, and make 
sure that our own constituencies, many of them with very 
strong, as Representative Wilson mentioned, British diaspora, 
many, like my own, with very strong Irish diaspora, and as 
members of the committee and myself having parents and 
grandparents from Ireland and from Europe as well.
    So we are deeply invested in this. We clearly want to see 
progress. The U.S. has much at stake itself.
    And thanks for taking the time, under a very difficult and 
changing landscape, one that changed by the minute, for being 
available and really helping us move forward. If this committee 
you think can somehow advance, you know, progress in this area, 
feel free, not just with your statements today but reaching out 
to us for anything that you think we can be helpful with.
    So with that, I will adjourn the hearing, and thank you 
all.
    [Whereupon, at 3:11 p.m., the subcommittee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre></body></html>
